i

No.
IN THE

Supreme Court of tfje ®ntteb States;
GAREY NEHRKE,
Petitioner,
v.
WELLS FARGO BANK N.A.,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE FLORIDA FOURTH
DISTRICT COURT OF APPEALS
PETITION FOR CERTIORARI

CERTIFICATE OF COMPLIANCE WITH RULE 33.1(g)

I, Garey Nehrke hereby certify that to the best of my knowledge, according to
the word count tool in Microsoft Word, the Petition for a Writ of Certiorari consists of
8862 words, including footnotes and excluding the sections enumerated by Rule
33.1(d).

ehrke
2920 NW 2nd Ave
Pompano Beach, Florida 33064
954-644-9900
Pro Se Petitioner
i

1

